U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

September 1, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Trump v. Sierra Club, No. 20-138

Dear Mr. Harris:
The government filed a petition for a writ of certiorari in the above-captioned case on
August 7, 2020. Any briefs in opposition are due on September 8, 2020. We write to clarify a
statement made in the section of the petition listing the parties to the proceeding, as required by
Rule 14.1(b)(i) of the Rules of this Court.
The petition seeks review of two related Ninth Circuit cases, including California v.
Trump, 963 F.3d 926 (2020) (Pet. App. 78a-173a). In the list of parties to the proceeding, the
government identified the respondents in California as 19 States and one state attorney general,
all of whom are identified as plaintiffs-appellees on the court of appeals’ docket and in the caption
to the published opinion issued by that court. See Pet. II-III (parties to the proceeding); Pet. App.
78a (caption). After conferring with counsel for the State of California, the government has
determined that, contrary to the court of appeals’ docket (and the government’s docketing
submissions below), the plaintiff States other than California and New Mexico were not properly
appellees with respect to the orders on appeal. In the California litigation, the district court
entered partial final judgment only with respect to California and New Mexico, not the other State
plaintiffs. See No. 19-cv-872 Judgment (June 28, 2019); cf. Pet. App. 189a. Therefore, among
the plaintiff States, only California and New Mexico were properly appellees in the court below
in California, and only those two States should be treated as respondents in California under this
Court’s Rule 12.6.
We regret the need for this clarification. In an abundance of caution, we have served this
letter on counsel to all of the State plaintiffs.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0138
TRUMP, DONALD J., PRESIDENT OF THE UNITED
STATES, ET AL.,
SIERRA CLUB, ET AL.

BENJAMIN DANIEL BATTLES
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
109 STATE STREET
MONTPELIER , VT 05609-1001
JACOB CAMPION
JULIANNA F. PASSE
445 MINNESOTA STREET
ST. PAUL, MN 55101
651-757-1459
JACOB.CAMPION@AG.STATE.MN.US
MARGARET Q. CHAPPLE
DEPUTY ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL CONNECTICUT
55 ELM STREET
PO BOX 120
HARTFORD , CT 06106
JEFFREY PAUL DUNLAP
OFFICE OF THE ATTORNEY GENERAL
20 ST. PAUL PLACE
FLOOR 20
BALTIMORE, MD 21202

JEREMY M. FEIGENBAUM
OFFICE OF THE NJ ATTORNEY GENERAL
25 MARKET ST.
FIRST FLOOR
TRENTON, NJ 08625-0080
609-376-2690
JEREMY.FEIGENBAUM@NJOAG.GOV
SUSAN P. HERMAN
DEPUTY ATTORNEY GENERAL
STATE OF MAINE
6 STATE HOUSE STATION
AUGUSTA, GA 04333
207-626-8814
SUSAN.HERMAN@MAINE.GOV
GABE JOHNSON-GARP
WISCONSIN DEPARTMENT O JUSTICE
17 WEST MAIN STREET
MADISON, WI 53707
LAWRENCE J. JOSEPH
AC - U.S. REPRESENTATIVE ANDY BARR (KY6)
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
MICHELLE SHANE KALLEN
OFFICE OF THE ATTORNEY GENERAL
202 NORTH NINTH STREET
RICHMOND, VA 23219

DROR LADIN
ACLU FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
212-549-2500
DLADIN@ACLU.ORG
DAVID JAY LYONS
OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF JUSTICE
820 N. FRENCH STREET
WILMINGTON, DE 19801
TANIA MAESTAS
DEPUTY ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
PO DRAWER 1508
SANTA FE, NM 87504-1508
JONA J. MAUKONEN
OREGON DEPARTMENT OF JUSTICE
1162 COURT STREET, NW
SALEM, OR 97301
ROBERT TADAO NAKATSUJI
OFFICE OF THE HAWAII ATTORNEY
GENERAL
425 QUEEN STREET
HONOLULU, HI 96813
MICHAEL J. O'NEILL
LANDMARK LEGAL FOUNDATION
3100 BROADWAY
SUITE 1210
KANSAS CITY, MO 64111
816-931-5559
MIKE@LANDMARKLEGAL.ORG

ERIC R. OLSON
OFFICE OF THE ATTORNEY GENERAL
1300 BROADWAY
10TH FLOOR
DENVER, CA 80203
720-508-6548
ERIC.OLSON@COAG.GOV
BERNARD ERIC RESTUCCIA
ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
670 LAW BUILDING
525 W. OTTAWA
LANSING, MI 48913
CALEB RUSH
OFFICE OF THE ATTORNEY GENERAL
100 WEST RANDOLPH STREET
12TH FLOOR
CHICAGO, IL 60601
HEIDI PARRY STERN
OFFICE OF THE NEVADA ATTORNEY
GENERAL (LAD VEGAS)
555 EAST WASHINGTON AVENUE
LAS VEGAS, NV 89101
JUSTIN JAMES SULLIVAN
SPECIAL ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
150 SOUTH MAIN STREET
PROVIDENCE, RI 02903
ABIGAIL TAYLOR
OFFICE OF THE MASSACHUSETTS
ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MA 02108

STEVEN C. WU
NEW YORK STATE OFFICE OF THE
ATTORNEY GENERAL
28 LIBERTY STREET
23RD FLOOR
NEW YORK, NY 10005
JAMES FRED ZAHRADKA, III
DEPUTY ATTORNEY GENERAL
1515 CLAY STREET
SUITE 2000
OAKLAND, CA 94612
JAMES.ZAHRADKA@DOJ.CA.GOV

